                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
                Reporting Entity: Amtrak ‐ OIG
              Month Ending Date: 08/31/2009

                                                   Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             Recovery Act TAFS          Obligation Type    US Indicator        State Code       Total Obligations   Total Gross 
                                                                                                       (ONLY for grants                         Outlays
                                                                                                       and cooperative 
No.                                                                                                      agreements)
      Amtrak ‐ OIG                (69‐0724 2009 \ 2013) Amtrak ‐       Other             Y ‐ US                                $89,389          $42,589 
                                  OIG ‐ Recovery Act
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                        Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          Non‐Recovery Act TAFS          Total FY 2009    Total FY 2009      Total FY 2010       Total FY 2010 
No.                                                                  Obligations     Gross Outlays       Obligations        Gross Outlays
  1 Amtrak ‐ OIG                  Amtrak - OIG                            $214,470          $197,968
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                            Copy of OIG Monthly Reporting Template with Training Data 082509 FINAL VERSION revised 090309.xls
                                                                                      OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0
        Reporting OIG: Amtrak ‐ OIG
    Month Ending Date: 8/31/2009

   # of FTE Working on Recovery                                Testimonies:
        Newly Hired FTE 
                           0.00                       Provided (monthly):             0
           (cumulative):

FTE Funded by Recovery 
                                  0.00            Provided (cumulative):              0
 Act Funds (cumulative):

      FTE Not Funded by 
     Recovery Act Funds           0.00
           (cumulative):

                                                                                                                                                  Audits / Inspections / Evaluations / 
              Complaints                        Whistleblower Reprisal Allegations                            Investigations                                                                                  Training / Outreach
                                                                                                                                                                Reviews
             Monthly Data                                    Monthly Data                                     Monthly Data                                   Monthly Data                                        Monthly Data

                                                                                                                                                                                                             Training Sessions 
                 Received:          0                             Received:          0                               Opened:           0              Initiated (this month):           2                                                 0
                                                                                                                                                                                                                    Provided:

                                                                                                                                                   In Process (as of the end 
                                                                  Accepted:          0                                 Active:         1                                                2                 Individuals Trained:            0
                                                                                                                                                             of the month):
                                                                                                                                                           Completed Final 
                                                                                                                                                                                                             Hours of Training 
                                                                                                          Pending Decision:            0                    Published Work              0                                                 0
                                                                                                                                                                                                                    Provided:
                                                                                                                                                                   Products:
                                                                                                                                                            Priority Interim 
                                                                                                                                                                                                            Outreach Sessions 
                                                                                                    Closed without Action:             0                    Published Work              0                                                 1
                                                                                                                                                                                                                  Conducted:
                                                                                                                                                                   Products:
                                                                                                              Accepted for                               Unpublished Work 
                                                                                                                                       0                                                0
                                                                                                              Prosecution:                                       Products*:
                                                                                                       Prosecution Denied:             0

                                                                                                  Referred for Alternative 
                                                                                                                                       0
                                                                                                               Resolution:
 Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009                   Cumulative Data Since 2/17/2009                  Cumulative Data Since 2/17/2009
                                                                                                                                                          Completed Final 
                                                                                                                                                                                                             Training Sessions 
                 Received:          0                             Received:          0              Closed without Action:             0                   Published Work       0                                                         0
                                                                                                                                                                                                                    Provided:
                                                                                                                                                                 Products:
                                                                                                                                                           Priority Interim 
                                                                                                                Accepted for 
                                                                  Accepted:          0                                                 0                   Published Work       0                         Individuals Trained:            0
                                                                                                                Prosecution:
                                                                                                                                                                 Products:
                                                                                                                                                        Unpublished Work                                     Hours of Training 
                                                                                                       Prosecution Denied:             0                                        3                                                         0
                                                                                                                                                                Products*:                                          Provided:

                                                                                                  Referred for Alternative                                                                                  Outreach Sessions 
                                                                                                                                       0                   Cumulative Total:            3                                                 3
                                                                                                               Resolution:                                                                                        Conducted:

                                                                                                         Cumulative Total:             0

*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.
                                                                                                                                                  Copy of OIG Monthly Reporting Template with Training Data 082509 FINAL VERSION revised 090309.xls
                                       OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Amtrak ‐ OIG
  Month Ending Date: 08/31/2009

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Began work on an OIG-ARRA information brochure to be distributed within Amtrak.
        2            Scheduled program management assessments for a major Amtrak programs being funded through ARRA
        3            Began work with Amtrak's Police and Security department to assess the risk levels of each of their key ARRA programs.
        4            Completed program management assessments for 3 major Amtrak programs being funded through ARRA
        5            Conducted project management reviews on Amtrak's car and locomotive refurbishment programs.
        6
        7
        8
        9
        10

       No.                                   OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1            Complete the design for the OIG-ARRA brochure to be distributed within Amtrak
        2            Continue the risk assessment of the Police and Security programs
        3            Hire an administrative assistant to be dedicated to ARRA oversight activities
        4
        5
        6
        7
        8
        9
       10




                                       Copy of OIG Monthly Reporting Template with Training Data 082509 FINAL VERSION revised 090309.xls
                                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0
  Reporting OIG: Amtrak ‐ OIG
   Month Ending 
                 08/31/2009
           Date:

                                                                                TRAINING ACTIVITIES
                                                                                        Training                     Length of                             Presentation    Average
                                                Target                                                  Date of                   Number of     Cost of
     No.               Type of Training                         Title of Training     Location (City,                 Training                              with Other    Evaluation
                                               Audience                                                 Training                 Participants   Training
                                                                                          State)                      (hours)                                  OIGs         Rating
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10

                                            OUTREACH ACTIVITIES
                                               Number of
                                             Organizations                              Outreach
                    Organization to which                       Description of                           Date of
     No.                                     Represented at                          Location (City,
                     Outreach Provided                             Outreach                             Outreach
                                               Outreach                                  State)
                                                Session
                                                            Fraud, Waste and abuse
      1         Amtrak personnel                         24                        Indianapolis, IN      6/24/2009
                                                            under ARRA
                                                            Fraud, Waste and abuse
      2         Amtrak personnel                         15                        New York, NY          8/28/2009
                                                            under ARRA
       3
       4
       5
       6
       7
       8
       9
      10




                                                                                     Copy of OIG Monthly Reporting Template with Training Data 082509 FINAL VERSION revised 090309.xls
